n
5

/"A
10

List of Appendices
1. Appendix A
New York State Court of Appeals Decision April 1, 2021

2. Appendix B
Appellate Division: Second Judicial Department
Decision & Order on Motion
Decided June 25. 2014

1

i

}

I

\

..-N
}

11

Appendix A
New York State Court of Appeals Decision September 10, 2020

;
5

r
i

r^\

State of New York
Court ofAppeals
Decided and Entered on the
first day ofApril, 2021
Present, Hon. Janet DiFiore, ChiefJudge, presiding.
Mo. No. 2021-54
Susan Aranoff,
Respondent,
v.

Gerald Aranoff,
Appellant.

Appellant having moved for leave to appeal to the Court of Appeals and for poor person
relief in the above cause;
Upon the papers filed and due deliberation, it is
ORDERED, that the motion, insofar as it seeks leave to appeal from the June 25, 2014
Appellate Division order, is dismissed upon the ground that it does not lie, appellant having
previously moved in the Court of Appeals for leave to appeal (24 NY3d 934 [2014]) from the
same Appellate Division order from which he currently seeks leave to appe.al {see Selinger v
i

Selinger, 90 NY2d 842 [1997]); and it is further

ORDERED, that the motion is otherwise dismissed upon the ground that the remaining
order sought to be appealed from does not finally determine the action within the meaning of the
Constitution; and it is further

'

ORDERED, that the motion for poor person relief is dismissed as academic.

John P; Asiello
Clerk of the Court
f

\

Appendix B
Appellate Division: Second Judicial Department
Decision & Order on Motion
Decided June 25, 2014

12

r \

3
Aranoff v Aranoff
Motion No: 2013-09429

Slip Opinion No: 2014 NY Slip Op 76248(U)
Decided on June 25, 2014
Appellate Division, Second Department, Motion Decision
Published by New York State Law Reporting Bureau pursuant to Judiciary Law § 431,
This motion is uncorrected and is not subject to publication in the Official Reports.

Supreme Court of the State of New York
Appellate Division: Second Judicial Department
Ml 76225
E/ct
RUTH C. BALKIN, J.P.
THOMAS A. DICKERSON
JOHN M. LEVENTHAL
SHERI S. ROMAN, JJ.
2013-09429, 2013-10416
2013-10418,2013-11465
Susan Aranoff, respondent, v Gerald

DECISION & ORDER ON MOTION

Aranoff, appellant.
(Index No. 54688/12)
Motion by the appellant pro se for leave to reargue so much of his prior motion which was for leave to appeal to this
Court from an order of the Supreme Court, Kings County, dated June 25, 2013^ and a judgment of the same court dated
September 10, 2013, which was determined by decision and order on motion of this Court dated April 3, 2014, and for
poor person relief with respect to the appeals from that order and that judgment, as well as with respect to appeals from
two orders of the same court dated October 1, 2013, and October 15, 2013, respectively.
Upon the papers filed in support of the motion and the papers filed in opposition thereto, it is
ORDERED that the motion is denied.
BALKIN, J.P., DICKERSON, LEVENTHAL and ROMAN, JJ., concur.
ENTER:
Aprilanne Agostino
Clerk of the Court

/"'A

i ^
Supreme Court
of the United States

Affidavit of Service by Mail
X

Proof of Service

Gerald Aranoff,
Petitioner
against
Susan Aranoff,
Respondent
---------

:

Docket #’s 18-7160, 18-9390, 20-6525

:

NYS Court of Appeals

:

NYS Appellate Div. 2nd Judicial Dept.

X

NYS Kings County Supreme Court

State of Israel
Tel-Aviv

SS:

Gerald Aranoff, being duly sworn, deposes and says:
I sent by UPS-express true copy of a Petition for a Writ of Certiorari to NYS Court of
Appeals dated April 25, 2021 and true copy of a Motion for Leave to Proceed In Forma
Pauperis dated April 25, 2021 to: US Supreme Court, 1 First Street, NE, Washington, DC
20543-0001 USA attention Scott S. Harris, Clerk of the Court 202-479-3039, to:
Susan Aranoff
498 East 18 Street. Brooklyn, NY 11226 USA
phones: 718-284-2093 917-671-7274
email: susanaranoff@grnail.com;

(J/uUc
Gerald Aranoff
8 Miriam Haneviah Street
Bnei Brak 51583 Israel
Phone 972-523-602370
Email: garanoff@netvision.net.il
Date: April 25, 2021

RECEIVED
APR 2 8 2021
isgRciM°EfcTa^f,"gK

